<html>
<title> - Ending the War in Ukraine: Kurt Volker, U.S. Special Representative for Ukraine Negotiations</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








115th Congress                                Printed for the use of the 
2nd Session             Commission on Security and Cooperation in Europe 
________________________________________________________________________



 
                   Ending the War in Ukraine: Kurt
                Volker, U.S. Special Representative
                     for Ukraine Negotiations
        
        
        
        
        
        
        




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                             MAY 8, 2018
                             

                           Briefing of the 
      Commission on Security and Cooperation in Europe
_______________________________________________________________________
                          Washington: 2018
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           

                           
              Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                           Washington, DC 20515
                               202-225-1901
                           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284b5b4b4d68454941440640475d5b4d064f475e">[email&#160;protected]</a>
                           http://www.csce.gov
                              @HelsinkiComm





                Legislative Branch Commissioners


              HOUSE                                SENATE
CHRISTOPHER H. SMITH, New Jersey          ROGER WICKER, Mississippi,
          Co-Chairman                             Chairman
ALCEE L. HASTINGS, Florida                BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama               JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                 CORY GARDNER, Colorado
STEVE COHEN, Tennessee                    MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina            JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                  THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                 TOM UDALL, New Mexico    
GWEN MOORE, Wisconsin                     SHELDON WHITEHOUSE, Rhode Island

         
                     Executive Branch Commissioners
                            
                           DEPARTMENT OF STATE
                          DEPARTMENT OF DEFENSE
                         DEPARTMENT OF COMMERCE
                         
                                  (III
                            
                            
                            
                            
                            
                            
                            
                            


    ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

  
    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


   ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.










Ending the War in Ukraine: Kurt Volker, U.S. Special

 Representative for Ukraine Negotiations

                              ____________
                              
                              May 8, 2018







                                                                                          Page
                              PARTICIPANTS


Alex Tiersky, Senior Policy Advisor, Commission on Security and Cooperation in Europe......  1
Ambassador Kurt Volker, U.S. Special Representative for Ukraine Negotiations ..............  2
2




                                        (IV)








              Ending the War in Ukraine: Kurt Volker, U.S. Special 
                        Representative for Ukraine Negotiations
                        
                        
                              ----------                              

                              May 8, 2018



               Commission on Security and Cooperation in Europe
                            Washington, DC


    The briefing was held at 2:05 p.m. in Room 106, Dirksen Senate 
Office Building, Washington, DC, Alex Tiersky, Senior Policy Advisor, 
Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Alex Tiersky, Senior Policy Advisor, Commission 
on Security and Cooperation in Europe; and Ambassador Kurt Volker, U.S. 
Special Representative for Ukraine Negotiations.

    Mr. Tiersky. Ladies and gentlemen, welcome to today's Helsinki 
Commission briefing on Ending the War in Ukraine. I welcome you on 
behalf of our chairman, Senator Roger Wicker, and our co-chairman, 
Congressman Chris Smith. My name is Alex Tiersky. I'm a policy advisor 
with the Helsinki Commission. Let me start by reminding everybody that 
our event is streaming live on the Helsinki Commission's Facebook page, 
and that if anyone is out there tweeting, you're welcome to use our 
handle, @HelsinkiComm.
    The war in Ukraine is the subject that we'll be discussing today. 
And as many of you are well aware, for 4 years now civilians in eastern 
Ukraine have suffered the effects of a needless conflict, manufactured 
and managed by Russia. An estimated 10,300 people have been killed, and 
some 25,000 injured. Millions more have been displaced. The 
humanitarian situation continues to deteriorate amidst almost daily 
cease-fire violations and threats to critical infrastructure. In 
particular, U.S. citizen Joseph Stone, some of you may not be aware, 
was killed a little more than a year ago, on April 23, while monitoring 
the conflict as a member of the OSCE Special Monitoring Mission in 
Ukraine. This monitoring mission is the only and key source of 
verifiable information on the grave daily impact of the conflict on the 
local civilian population.
    On the occasion of that somber 1-year anniversary of Joseph Stone's 
death, the chairman and the ranking senate commissioner jointly put out 
a statement, which we put in your folders. Chairman Wicker stated that 
Russia's continued fueling of this war must end. Putin and those he 
supports should live up to their commitments under the Minsk agreements 
and get out of Ukraine. In that same statement, Ranking Senate 
Commissioner Cardin stated that Russia's invasion of Ukraine is one of 
the most serious breaches of OSCE principles since the signing of the 
Helsinki Final Act of 1975. The Russian regime must put an end to the 
cycle of violence it perpetuates in Ukraine and live up to its OSCE 
commitments.
    Ladies and gentlemen, we have today an extraordinarily 
distinguished guest, who is at the very heart of the efforts to end 
this tragic conflict. We are very fortunate that Ambassador Kurt Volker 
has agreed to share his thoughts with us today. In July 2017, 
Ambassador Volker was appointed by then-Secretary of State Tillerson as 
U.S. Special Representative for Ukraine Negotiations. In that capacity, 
he has undertaken a series of discussions with senior Russian 
counterparts, in particular Vladislav Surkov, to explore ways to end 
the conflict, including the possibility of an international 
peacekeeping mission.
    His full biography is in your packets, but by way of introduction 
let me only note that Ambassador Volker's 30 years of leadership ranges 
across a variety of government, academic, and private sector positions. 
And that besides moonlighting in his Ukraine-related role, Ambassador 
Volker sometimes finds time to also serve as the executive director of 
the McCain Institute for International Leadership, which is a part of 
Arizona State University based here in Washington, DC.
    Ambassador Volker, we are all grateful that you've been willing to 
personally engage your considerable skills and expertise in seeking a 
solution to this conflict, of course, on the basis of ending Russia's 
aggression and restoring Ukraine's territorial integrity. I look 
forward to your introductory remarks and the input we are sure to 
receive from this distinguished audience. I see representatives of 
congressional staff, I see think tank colleagues, I see embassy 
representatives, and the public. I also want to note the presence of 
some future leaders of America who are observing our proceedings today.
    Ambassador Volker, please, you have the floor.
    Amb. Volker. Thank you very much. Thank you, Alex, for having me. 
And it's really a pleasure to be with the Helsinki Commission. I think 
this commission plays a really critical role. It keeps a focus on some 
of the values and principles that we hold dear as a country. And it 
creates a way to bring those forward in a congressional setting that 
oftentimes does not happen as clearly as it does through the Helsinki 
Commission. So I think that's important.
    The other thing that you referred to in your remarks I wanted to 
refer to as well, which is the core Helsinki principles themselves. And 
let me just start off by saying that if these principles were being 
respected today, we wouldn't have a problem in Ukraine. There's what's 
well known as a decalogue of these core principles, and I'll just read 
them out. That's the sovereign equality and respect for the rights 
inherent in sovereignty; refraining from the threat or use of force; 
three, inviolability of frontiers; four, territorial integrity of 
states; five, peaceful settlement of disputes; six, non-intervention in 
internal affairs; seven, respect for human rights and fundamental 
freedoms; eight, equal rights and self-determination of peoples; nine, 
cooperation among states; and, ten, fulfillment in good faith of 
obligations under international law.
    I don't think there's anything there that we would have a problem 
with, that Ukraine would have a problem with, that any normal sovereign 
democratic state in the Euro-Atlantic community should have a problem 
with. And if we did see respect for these principles, there would be no 
conflict in Ukraine today.
    Unfortunately, there is a conflict in Ukraine. And I've been very 
clear in my commentary to describe this as a hot war, because so often 
it is relegated to this status of frozen conflict and therefore not 
important in some way. That is simply not true. It is an active 
conflict. It's a hot war, as I say. There is fighting going on every 
day. This year alone, talking 2018, 33 members of the Ukrainian armed 
forces have been killed, and 228 wounded, so far. These are soldiers of 
a country fighting to defend themselves on the territory of their own 
country. This is not some expeditionary mission. There is no fighting 
going on in Russian territory or somewhere else. This is all happening 
inside Ukraine. The armed forces of that country are fighting to defend 
their society. And 33 members of the armed forces have been killed.
    Civilians are also facing a significant impact from the fighting. 
In the past 12 months, 50 civilians have been killed during the course 
of this conflict. And at least 250 civilians wounded over the past 12 
months. That is an unacceptable human toll. And let me add a few 
others, having spoken with United Nations representatives in Ukraine in 
the past few weeks. In addition to what you mentioned, Alex, of over 
10,400 people killed as a result of this conflict, there are estimates 
of anywhere from 1\1/2\ to 2 million people displaced by the conflict. 
There's an estimate of approximately 1.2 million people living in food 
insecurity because of the conflict.
    And let me describe what that means. Food insecurity is defined as 
if you were to have a normal diet, you would be spending at least 50 
percent of your income in order to buy food to sustain that diet. So 
1.2 million people are in that situation. A smaller number, but a 
significant number, are living in severe food insecurity, meaning 70 
percent of their income would be required just to provide a normal 
diet. Obviously, they don't do that, because they have to do other 
things, like get around and go to school and have heat. So they can't 
spend all of that money on that alone. And so there is a food issue.
    There's the physical security issue for the population. And as I 
mentioned, civilians have been killed. And as recently as within the 
last 2 weeks, a family of four hit a landmine and was blown up. There 
is economic insecurity as a result of the invasion, occupation of this 
part of the Donbas. The economy there, apart from subsidized payments, 
has largely shut down. This used to be a heavy industry area of coal 
mines, steel mines, coke plants. A lot of that now largely shut down. 
And so there is economic insecurity. And that extends even to people 
who are pensioners, who would normally be receiving a government 
pension in order to survive. The government of Ukraine is unable to 
reach those people directly. They need to cross into the main area of 
Ukraine in order to receive those payments. A dangerous crossing across 
the cease-fire line, or an arduous one going around.
    There are health issues. And the U.N. is concerned about outbreaks 
of antibiotic-resistant tuberculosis in the occupied area of the 
Donbas. There are water concerns. And there have been attacks on a 
water filtration plant near Donetsk. And attacks even on the crews who 
were working at that plant, as they've gone to and from work. There are 
environmental concerns. And some of these mines have been used for 
dumping, including for radioactive waste, which is going to present a 
very long-term health challenge in the area. These are direct, 
significant, and intolerable human consequences of this conflict.
    Now, let me speak a little bit more about the nature of the 
conflict. It is not, as is sometimes portrayed, an ethnic conflict 
between Ukrainians and Russians. These are Ukrainians fighting to 
defend their territory, whether they are ethnic Ukrainian or ethnic 
Russian. And the people in the Donbas who are there are living under an 
occupation regime of the Russian-created entities, Luhansk People's 
Republic and Donetsk People's Republic. Everything there, in the east, 
is 100 percent under Russian command and control, under Russian 
political direction. They were established at Russia's direction. They 
are financed by Russia. They are directed by Russia. They are there 
only at Russia's control--because of Russian policy.
    You have ethnic Russians fighting on both sides of the conflict, 
fighting for the Ukrainian military to defend the country and also 
fighting as hired contract soldiers for the military forces that Russia 
has assembled in the east. So if anything, this is a conflict that has 
more to do with Russia's direct intervention in Ukraine and its 
occupation of territory, and an unresolved issue in the ethnic Russian 
community of the degree to which that community sees itself as a part 
of Europe and can orient toward the West, and can live in a democratic, 
normal society in Ukraine, or the degree to which that is unacceptable 
to Russia. And Russia will fight and kill people to prevent that from 
happening.
    There is a peace agreement that has been agreed to, which is the 
Minsk agreement. That has been signed by Russia, Ukraine, and the OSCE. 
And they have periodic meetings in Minsk to check up on implementation. 
The fact is that it is not being implemented. There has not been a 
sustained cease-fire. There has not been an effective withdrawal of 
heavy weapons. There has not been an opportunity for the government of 
Ukraine to access this territory at all, which means that some of the 
political steps that should take place under Minsk--such as local 
elections, such as granting of amnesty and a special status to the 
area, have not been implemented either. That needs to happen. But it 
can't happen as long as the area remains under Russian control, and 
without any access for Ukraine government entities.
    There's a diplomatic process that is aimed at facilitating 
implementation of the Minsk agreements. That's called the Normandy 
Process. And that consists of France and Germany sitting down with 
Ukraine and Russia, trying to cajole steps toward implementation. And 
looking particularly at what steps can be done, such as a localized 
cease-fire or a cease-fire that lasts for more than a day, or a 
withdrawal of a heavy weapon, or the opening of a border crossing 
point, in order to create some kind of goodwill and some kind of 
momentum. I think we have to applaud the efforts of France and Germany. 
We certainly support them in this endeavor. But unfortunately, that has 
also produced very little over 4 years.
    The United States has gotten increasingly engaged in trying to push 
for a diplomatic resolution of the conflict since July. And we're doing 
so by joining with France and Germany in our efforts and supporting 
their efforts, and at the same time trying to create a much greater 
sense of clarity. The fact is that this conflict will only be resolved 
if Russia decides to remove its forces from the territory of Ukraine 
and to allow a genuine security presence to enter. We've proposed that 
this be under a U.N. mandate, an internationally mandated peacekeeping 
force that would not be Ukrainian forces, in order to establish 
security and create the conditions where you could have local elections 
and where you could have the other steps of the Minsk agreements 
fulfilled.
    If that were to be done, you would have a situation where the 
territory would then be restored to Ukrainian control after the 
implementation of the Minsk agreements, according to the terms of those 
agreements. Thus far, the U.S., France, and Germany have proposed to 
Russia parameters, the contents of what a peacekeeping force would 
genuinely need to be able to do. There are three basic elements to 
that. It would need to have responsibility for area security, to 
control security within this territory. It would have to participate in 
the cantonment of heavy weapons. And it would have to establish control 
of the international border between Ukraine and Russia. That does not 
mean closing the border. It just means controlling the border, which 
right now is controlled only by Russian forces and allows for the 
unfettered movement of troops and equipment back and forth. If a 
peacekeeping force could do those things, the conditions would be ripe 
to then hold local elections and take other political steps under Minsk 
and see that they are fully implemented.
    We've put this offer on the table. We've discussed it in terms of 
implementation modalities with Russia. We are waiting to hear back from 
Russia. Last conversation I had with my Russian counterpart was in 
January. Russia's been through a lot of things since then--an election 
and inauguration yesterday. So we are hopeful that we hear something 
soon as a constructive response to this proposal for a U.N.-mandated 
peacekeeping force, which we believe is essential to resolving the 
conflict and also to finally and fundamentally alleviating these 
humanitarian concerns that I raised.
    So I will pause there, and I would be delighted to hear any 
comments and questions. And I'm in your hands, Alex.
    Mr. Tiersky. Thanks very much, Ambassador. An excellent starting 
point.
    I'm going to ask you a few questions to follow up on what you just 
said. So the Russians have in front of them a coordinated proposal from 
ourselves--from yourself, along with the French and German colleagues 
that you work with. And we are awaiting a response from them. What is 
your sense of any impact that President Putin's re-election may have on 
their potential response? What happens if there is no response from the 
Russian side? I mean, it's not to my understanding that they have some 
sort of a deadline to respond.
    Amb. Volker. Right. First off, I think we did make an assumption 
that it was going to be difficult for Russia to address this in a 
serious and coherent way prior to President Putin's re-election. So now 
that that has passed and that the inauguration is also passed, I hope 
that we are entering a period where Russia will be willing to take this 
on again. So that's the first part of that.
    The second is that there's nothing to be gained by continuing this 
conflict. There's no recognition of Russia's taking of this territory. 
There is no further incursion that's going to be made. The Ukrainian 
people have shown extraordinary resilience and it has, in fact, 
reinforced a sense of national identity and purpose in Ukraine. And I 
don't see that changing as long as this conflict goes on. In fact, it 
deepens the more this conflict goes on. There are costs to Russia and 
to others as a result of this conflict, in the form, for instance, of 
sanctions, which are in place and are escalating. There are costs in 
terms of military operations--the loss of lives, the civilian 
administrations. And so it's paying a lot for not much at all. So 
hopefully that will be a reason on its own to take steps to end the 
conflict.
    And probably even most importantly, as President Putin has passed 
this milestone of being elected into his fourth term, if that's how we 
look at it, one would hope that he would look to create a legacy of 
creating peace. We have Russian soldiers being killed fighting this 
conflict. We have Russians killing Ukrainians. We have Russians on both 
sides fighting. It's a tragedy. And if he could position himself to be 
supporting peace and a resolution of the conflict, I think that would 
be at least a positive legacy in that respect for him.
    If none of that happens, our plan A is still plan A, which is we 
want to see Ukraine be a successful, prosperous, and secure democracy. 
We want to see Ukraine develop as a country. We want to see the best 
possible opportunities for the Ukrainian people. We've been providing 
assistance to Ukraine in a number of ways, as have countries in Europe, 
the European Union and so forth. We'll all continue that. And we'll all 
urge Ukraine to do its share as well, in the spirit of reform and 
fighting corruption to create the conditions for that kind of 
prosperity in Ukraine. And to the degree that Ukraine as a whole is 
successful as a country, that is also going to facilitate long-term 
resolution of the conflict.
    Mr. Tiersky. What is your assessment of the impact of the widely 
reported delivery of the Javelin antitank weapons, both in terms of 
Ukraine's capacity and the use of the Javelins--or the existence of the 
Javelins as a defense asset, but also as a political statement of the 
U.S. commitment to Ukraine?
    Amb. Volker. Right. So first off, let's remember to keep it in the 
right context. These are weapons that a country has purchased and put 
into storage on its own territory. Why this is remarkable is what's 
kind of puzzling. This is what every country does. These weapons in 
particular are defensive weapons. They are useful if they have a tank 
coming at you. You can attack that tank and destroy it. What that means 
practically is that if Russia were to try to make substantial further 
incursions into Ukrainian territory, it would be more difficult. I 
don't think anyone doubts Russia's ability to do that. Russia has a 
very strong, very capable military. And in very large numbers both 
inside Ukraine and surrounding Ukraine. So no one doubts Russia's 
capability.
    But for it to be a more costly, more visible operation is what the 
presence of these weapons would mean. And that, I think, adds to the 
calculation in Russia, which I don't believe has been interested in 
taking more territory anyway. I think it just adds to the calculation 
to say, you know, it's not worth it. So I think in that sense it fills 
a gap that had existed in Ukraine's defensive capabilities, and does it 
in a way that I think stabilizes the conflict and creates some of the 
conditions of there being nothing further to do here, why don't we 
resolve it.
    Mr. Tiersky. Your mandate as Special Representative for Ukraine 
Negotiations--to what extent is your mandate also working with the 
Ukrainians to get to a place where they are engaging in this process in 
a manner that is likely to lead to a positive outcome?
    Amb. Volker. Yes, well, fortunately, I'm not alone in this. And we 
have the White House. We have Secretary Pompeo. We have Secretary 
Mattis. We have Assistant Secretary Wess Mitchell. So there's a wide 
team engaged, actually, in talking with Ukrainians and working with 
them. In fact, National Security Advisor Bolton is having a meeting 
today with his Ukrainian counterpart. So there's a wide effort there.
    In terms of Ukraine's delivery on political and economic decisions 
and developments, these are things that everyone across the U.S. 
Government is raising with them, about reform, about fighting 
corruption, about strengthening institutions. Ukraine has done an awful 
lot in the past 3, 3\1/2\ years. There is a lot more to do. No one 
could look at the situation and say everything is fine. But it's better 
than it was prior to 2014. But nonetheless, there's a lot to do. When 
it comes to Ukraine's particular steps under the Minsk agreements--and 
this is the creation of a special status for the territory in eastern 
Ukraine, a granting of amnesty to people who have committed crimes in 
the occupied territories as part of the conflict, and the conduct of 
local elections for the legitimate local authorities in the area--those 
are things that Ukraine has repeatedly said it understands it needs to 
do and is prepared to do them when it is able to do so.
    None of the possibilities have existed to this point for Ukraine to 
be able to do that. Most fundamentally, not even a cease-fire. So there 
is active fighting still going on. But with the withdrawal of Russian 
forces and the creation of security, Ukraine would be obliged to take 
those steps. And they would face significant encouragement and support 
from the United States, from the European Union, France, and Germany. 
This is what it signed up to in the Minsk accords. And it's important 
that Ukraine do its share as well.
    Mr. Tiersky. One more question from me, and then I'll turn it over 
to the experts that I see in the audience, who I think will want their 
chance. We've gone so far in the briefing before, I think, explicitly 
talking about Crimea. Crimea is obviously part of Ukraine's territory. 
And insofar as your mandate has to do with the territorial integrity of 
Ukraine, I was hoping you could say a few words about your engagement 
on Crimea.
    Amb. Volker. Absolutely. We have made clear from our very first 
meeting with Russian counterparts--or, I have in this channel--that we 
do not accept or recognize Russia's annexation--claimed annexation of 
Crimea. And we have sanctions in place as a result of that, as does the 
European Union. It is simply not acceptable for a country to go into a 
neighboring country, seize territory by force, and annex it. So we are 
not in a position to accept that. There are also significant human 
rights violations going on in Crimea, as Russia has imposed a 
centralized rule over the territory there and disbanded the militias 
and the local government that had been there. We highlight those 
things, and it's important that we provide humanitarian support and 
other political support for the people of that region.
    The only good thing that can be said about this is that there is 
not active military-style fighting going on around the territory of 
Crimea. That's fortuitous. There is that kind of fighting going on in 
the Donbas. And so we are looking at this as an unacceptable move by 
Russia to claim to annex this territory. And we are similarly looking 
at that in the case of the Donbas. But we also have additionally in the 
Donbas the urgency of the conflict and the humanitarian situation.
    Mr. Tiersky. Great. Thank you.
    Let me turn it over to the audience. Who would like to ask a 
question at this point? Sure. I see one back here, please. There's a 
microphone coming. Please identify yourself.
    Questioner. Rafael Saakov from Voice of America.
    Mr. Volker, I wanted to ask you about the latest Bellingcat report 
about the Mariupol attack that was connected directly to Russia. And 
there were even some officers identified in this report who have been 
involved in this attack. Would you know about it? And what do you think 
this will mean?
    Thank you.
    Amb. Volker. Yes. I don't have any details beyond what you just 
said. So I can't confirm anything particular. But let me just say that 
none of this is a surprise, that this has been a Russian-directed, 
commanded, and controlled operation for years now. There are regular 
Russian officers embedded at every level of command in the separatist 
forces, as they call them. They are led by Russia. And they press 
fighting at points along the so-called cease-fire line constantly. We 
have cease-fire violations, mortar shellings, sniper attacks, artillery 
fire every single night. Sometimes this escalates, and the OSCE puts 
out numbers of in excess of 2,000 cease-fire violations per night. 
Sometimes it tapers off into the low hundreds. But it has been constant 
like this for 4 years now.
    Mr. Tiersky. This gentleman here.
    Questioner. One of the intriguing things about this conflict is the 
number of Russian ethnic people who have taken the cause of Ukrainian 
freedom into their own hands, put their lives on the line to do that. 
Can you give us any more--you said there's Russians represented on both 
sides. Can you give us some more details about the effectiveness and 
the numbers and the percentages of the Russian volunteers on the 
Ukrainian side?
    Mr. Tiersky. Let me take one more question at the same time. 
Please, in the blue blazer back here. Thank you.
    Questioner. Good afternoon. My name is Askold Krushelnycky. I'm a 
freelancer. I write for, amongst other things, Foreign Policy and the 
Kyiv Post.
    It seems that now that Putin has been reelected and you anticipate 
or hope that there'll be more serious talks, there has to be a way 
found for him to save face. And you've talked about introducing U.N. 
peacekeepers, which the Russians have as well. But their concept of 
that was actually to just keep themselves safe or keep the occupation 
frozen as it is. Do you think that U.N. would be willing to? And is 
that the most realistic way forward?
    The other thing is just, I'm very curious how, when Russia refuses 
to acknowledge its presence in Ukraine, your meetings can carry on with 
Mr. Surkov. It seems to me there's an almost surrealistic aspect to it. 
And I'd like to hear how you do it.
    Amb. Volker. Right. So, first off, let me start on what Russia 
proposed concerning the U.N. Russia proposed in September of last year 
what they called a protection force. And the idea was to protect OSCE 
monitors, only on the cease-fire line that is dividing the territory of 
Ukraine. Everyone in response to this--whether it was Ukraine, United 
States, other Security Council members, France, the U.K., Germany, 
Sweden, others--all looked at this and immediately saw that this would 
only further deepen the conflict, divide the territory, make it 
essentially unresolvable. So we all stopped any effort to move on that 
Russian proposal and said: What we need is not a protection force. We 
need a genuine peacekeeping force, one that would have those attributes 
that I described earlier. And that's why we produced these parameters 
with France and Germany to say: This is what a genuine peacekeeping 
force would need to be able to do.
    Now, as to whether the U.N. would be willing to do that, what we 
are proposing is not a U.N.-run operation, not one that goes under 
general assessment of special assessed contributions to the United 
Nations. This would be a U.N.-mandated peacekeeping force that would be 
staffed on the back of voluntary contributions by nations, coordinated 
through a special representative of the Secretary General. And many 
nations have stepped forward to say, in the right circumstances--and 
that's a critical caveat--but under the right circumstances they would 
be prepared to contribute.
    And I think a U.N. Security Council resolution would, of course, 
only pass if Russia was voting in favor, which means that this is 
designed to be a proposal that only works if Russia's in agreement to 
solving the conflict as well. If Russia wants to keep fighting, if 
Russia wants to obstruct peace, then no one is going to put their own 
forces in there, to then try in some way to compel Russia physically. 
That's just not going to happen. So the fact that this requires Russian 
agreement is not only realistic, but necessary. That what we want to do 
is agree with Russia. Now, as to why they would want to--first off, as 
I said, I think they get nothing out of this conflict. It's actually a 
drain on Russia. They can pursue whatever other goals they have with 
Ukraine without holding onto this territory and propping up these 
particular puppet regimes.
    In addition to that, I think that it is unconscionable, even from a 
Russian perspective, to be thinking about Russians fighting and killing 
Ukrainians, Russians fighting and killing ethnic Russians, Russians 
dying on Ukrainian soil over this. There's nothing honorable about 
that. And turning it around, the idea of being able to stop that, to 
create peace, to build a renewed harmony between what have been peoples 
that have been very close to each other for centuries is something that 
is worthy of a legacy. And so I hope that we're able to flip the optics 
of this.
    And then as a practical matter, there are things that are achieved 
if the Minsk agreements are actually implemented. And the whole point 
of this proposal is to see that the Minsk agreements are implemented. 
And those things would be to achieve a special status for this 
territory within Ukraine, to gain an amnesty for some people, and see 
that local elections are again held and that the local population is 
able to exercise its rights again, which they are not able to do as 
long as the Russian forces are there in an occupying capacity.
    Mr. Tiersky. I see a question right here, please.
    Questioner. Thank you. Hi, I'm Volodymyr Dubovyk, professor of 
international relations from Odessa University.
    I understand that this hearing is not a place for sentiments, but I 
would like to begin by saying words of gratitude to this Nation for its 
support and assistance to my country in Ukraine in these times of need 
that we live through. Also, personally to you, Ambassador, your 
excellency. I guess we are fortunate in Ukraine to have someone like 
you in this position, who has a clarity of analysis, clear vision on 
the Russia-Ukraine conflict, and principled position, for your tireless 
efforts in finding a resolution for Ukraine-Russia conflict, and 
helping Ukraine. Thank you.
    My question also goes to the subject of a peacekeeping force. You 
have mentioned that since the Russians came up with their position, 
which is not suitable to this government, and you came back and said 
this is how we think it should be done, there has been a long pause. 
And you're still waiting to hear from them. In that waiting time, have 
you seen any signs that make us hopeful in any way that Russia might 
readjust its position on the peacekeeping mission, its potential? 
That's the No. 1 question.
    The second question, if I may--I understand that assessment of 
Ukraine and reforms in various fields is not a part of your portfolio. 
But still, I would like to ask, do you feel there is a strong 
connection and contingency between how Ukraine does reforms and how it 
keeps the pace of reforms up, and how it fights to eradicate corruption 
on the one hand, and the future of American support and assistance to 
the country of Ukraine, the Nation of Ukraine, in the future?
    Thank you.
    Amb. Volker. Great. Well, thank you. Unfortunately, the answer to 
your first question is no. I don't see any hopeful signs. In fact, if 
you look at the wider context of Russia's activities, whether globally 
or with respect to the United States, it's been a very disappointing 
several months. We saw the nerve agent attack in the U.K. We saw the 
expulsion of additional diplomats and the breaking of additional 
diplomatic ties through that.
    We saw the attack of Russian contract soldiers on U.S. and other 
forces in Syria. We saw the campaign videos of the infinite duration 
cruise missile, or the renewal of the nuclear capacity, the animated 
version of a strike on Florida. None of these are hopeful signs in 
terms of how Russia is looking at its engagement with the rest of the 
world at the moment. It's taking a very belligerent look at that.
    The only thing I can say that would be hopeful is that if Russia 
wanted to pick one issue that is ripe for resolution, that offers a 
positive outcome for Russia as well, and that is eminently achievable, 
it is ending this conflict in the Donbas, or withdrawing its forces and 
seeing the Minsk agreement is implemented. Russia could very easily 
help to bring that about. At the moment, however, as you asked, I don't 
see very many hopeful signs in that direction.
    As for Ukraine, I want to start off by saying I do understand the 
degree of difficulty of reforming a system that has become endemically 
corrupt, and endemically controlled by a small number of people in a 
form of oligarchy. And Ukraine has done a lot in the past few years. 
There has been pension reform. There has been health care reform. There 
has been education reform. There has been tax reform. They've made a 
number of steps. But it is all falling short.
    And I think the key test is whether foreign investors feel 
confident they will be able to invest in Ukraine, create jobs, create 
prosperity, and be confident that they are living in a rule-of-law 
environment, that they can be successful as businesses, and that they 
can declare profits and keep those profits if they are successful. Very 
few businesses feel that way. And so I don't think Ukraine has crossed 
that threshold. And there's a lot that is yet to be done.
    I think Ukraine would be a stronger country, a much stronger 
country, to the degree it is able to deal with these issues of 
corruption and economic reform and business climate. It has done some, 
as I said, but it needs to do a lot more. And it would make it a 
stronger country. And a stronger country will be more resilient in the 
face of this aggression.
    From a United States or a European standpoint, we want to do 
everything we can to encourage Ukraine to move down the right path on 
reform and strengthening its country. It's good for Ukraine, as well as 
a good use of resources. And we want to do what we can. I would hate to 
see us in a position where we give the Russians what they want, which 
is to not help Ukraine because Ukraine has flaws in its economy, its 
governance, its institutions, and so forth. That would just be doing 
Russia's job for it. I think we need to separate the two, be insistent 
on Ukraine's own work on reform and strengthening institutions, and at 
the same time support Ukraine's sovereignty and territorial integrity.
    Mr. Tiersky. Good. I see a question right here, please.
    Questioner. Thanks. Hello. Thank you for being here presenting. My 
name is Abigail Annear. I'm with the Committee on Foreign Affairs.
    And as you know, Congress faces almost an infinite amount of issues 
at any given point. And when you look at Russia specifically, there are 
also several issues--cybersecurity, election meddling, Syria, Ukraine, 
et cetera. It feels like it gets bigger and bigger with each day. Given 
that Congress does have to prioritize its issues and what to place on 
the agenda, I was wondering if you could possibly make a case for why 
Ukraine should be prioritized over some of these other Russia-specific 
issues.
    Thanks.
    Amb. Volker. Sure. Yes, I think it's actually fairly easy to make 
that case. I don't mean to diminish any other issues, because they're 
all important, but let me say a few things about this. We are not going 
to have some magical meeting of the minds with Russia on values and 
interests from one day to the next. We're going to have our 
disagreements. And we're going to have different interests. And we'll 
have to navigate that. The best way to navigate that is to have a set 
of rules and expectations that creates some stability, some mutual 
respect, and that preserves the respect, the sovereignty, the rights, 
the interests of other people, people like Ukrainians or the Baltic 
States or Georgia or Moldova, or so on. These are all people who have a 
right to their own future.
    And that's why I brought up the Helsinki principles at the 
beginning of this meeting, because those sort of rules, if implemented, 
would create the kind of international environment that would allow for 
security, respect, stability, national development, call it creation of 
prosperity, even when we disagree. And what Russia has done is 
basically tear up these rules, in the case of Ukraine.
    And that has very dangerous consequences, because if you do it 
here, where else might you do it? What certainty can we have that we 
will have security or stability in the future? So doing this partly is 
about Ukraine, because it is. But also partly about trying to 
reestablish some fundamentals in the world we're living in so that we 
can have some confidence in the future. I think that's an important 
element.
    Mr. Tiersky. I think that's an extremely compelling case. And thank 
you for making the compelling case for me to get up and come to work 
every day. [Laughter.] This is exactly why the Helsinki Commission is 
here.
    I saw--I think the next hand I saw was here, and then we'll go to 
the back.
    Questioner. Orest Deychakiwsky. Previously with the Helsinki 
Commission, now with the U.S.-Ukraine Foundation.
    I don't want to get too much in the weeds, but I recall how you 
used to work in earlier parts of your career on the OSCE. The Helsinki 
Commission, of course, deals a lot with the OSCE. In the event of a 
U.N.-mandated peacekeeping mission, how do you foresee the role of the 
OSCE, including, let's say, the OSCE Special Monitoring Mission (SMM) 
in Ukraine?
    Thank you.
    Amb. Volker. Yes. Okay. I view the role of a U.N.-mandated 
peacekeeping force as being an armed force that provides broad area 
security responsibility, to include overseeing the cantonment of heavy 
weapons. I also see it providing security for entities that would 
operate to control the Ukrainian side of the Ukraine-Russia border. The 
OSCE would continue to conduct its monitoring mission. It has a lot of 
local knowledge and a lot of good people. And it would now be able to 
carry out that mission in a far more secure environment than it is able 
to do it. Part of the SMM's mandate includes registering of the 
locations of heavy weapons, monitoring where they are, and also access 
to the Ukraine-Russia border. So a U.N. peacekeeping operation would be 
reinforcing the SMM's execution of its actual mandate, which it is not 
currently able to do.
    In addition to that, you can see a couple of other roles for the 
OSCE where they would be better suited than anyone else. You could see 
a role for the OSCE in providing some supervision and training of local 
police forces, because you'll be seeing the removal of illegal armed 
groups. And you don't want a security vacuum to be created in their 
absence. You want a reinforcement of legitimate local police forces. 
And perhaps even making sure they are integrated on an ethnic basis as 
well, so that there is no perception that local policy forces are 
acting on behalf of one community or another.
    In addition to that, you would need to create local elections, have 
an organization of local elections which the OSCE would be well suited 
to do. And then we also need the monitoring of those elections, which 
is the job of the Office of Democratic Institutions and Human Rights. 
So I think those would be the principal areas that I would see the OSCE 
having a substantial role, if we got to that point.
    Mr. Tiersky. Ambassador, I want to follow up on that question. The 
risks that the monitors themselves face in reporting from this conflict 
every day is something that our commissioners have been seized with for 
quite a while, obviously particularly and including the tragic death of 
Joseph Stone. We had a briefing at the end of last year with the 
Principal Deputy Chief Monitor Alexander Hug, who reported on the 
humanitarian suffering of civilians in the region, but also on some of 
the challenges in monitoring this conflict. I wonder, to what extent do 
you consider it part of your mandate to press the Russians on ending 
the harassment of the monitors, ending the often violent conditions 
that they face in trying to just report out what's going on on the 
ground. And if, insofar as you are advocating in that direction, what 
kind of response you receive.
    Amb. Volker. Sure. Well, I've done it. Whether it's mandated or 
not, I've done it--[laughs]--because we have the opportunity to raise 
it directly with Russian representatives. And what I've said is that it 
is an unacceptable situation, where Russia agrees to a mandate for 
these monitors in Vienna, and exercises command and control of forces 
in eastern Ukraine that have prevented the monitors physically from 
executing that mandate. That's just not a responsible position for a 
member State of the OSCE. And of course, as was pointed out earlier, 
Russia denies that it is present in eastern Ukraine. And it denies that 
it has control of the military forces in eastern Ukraine. And so it 
just points a finger at the separatists and says: We'll talk to them. 
We'll see what we can do. And then nothing ever really changes.
    Mr. Tiersky. Okay, I see one back here and then we'll go--so, yes.
    Questioner. Hi. Thank you so much. Eric Sprung (sp) from 
Congressman Ro Khanna's office.
    I have a few related questions here. I noticed that in the Deutsche 
Welle interview you mentioned some concerns about rule of law in 
Ukraine, in particular regarding some of the small but significant kind 
of ultranationalist militias and street gangs. The Atlantic Council 
recently put out a piece on this saying--you know, they had previously 
said these groups are marginalized and irrelevant. Now they're saying 
they may be on the rise and may be a real concern even to potentially 
put pressure on the government.
    I know they've--one group, for example, is the Azov Battalion, you 
may be familiar with. Congress recently passed a ban on arming and 
training that group for their neo-Nazi ties. In their defense, they 
said they're only 10 to 20 percent Nazi. That's what they told USA 
Today. So if they--from what I understand, they've threatened to topple 
Kyiv and Poroshenko, if he signed a peace agreement or did some kind of 
diplomatic resolution with Russia, seeing it as capitulation to Russia. 
Do you think that's a significant threat, or is that something that 
will pose a problem in these negotiations?
    And then second, you may have saw, 57 House members wrote on these 
Nazi glorification laws, Nazi collaborator glorification, the memory 
laws in 2015. Poland's got a lot of attention for denying the Polish 
role in the Holocaust. But the Ukrainian law kind of glorifies, 
actually, Nazi collaborators, goes a step beyond. Do you think U.S. 
policy should address that? Or how should the U.S. deal with that 
generally?
    Thank you.
    Amb. Volker. Right. Let me just say that there are small numbers of 
groups that have extreme views in Ukraine, and even sometimes take 
extreme actions. If you go back to 2014, when the Ukrainian armed 
forces were largely defeated by Russia, some of these groups took on 
increased prominence because they were there and they were fighting. 
They are not a significant factor in Ukraine's political, economic, or 
security sectors today. They occasionally make their voice heard, but 
they are not a factor at all.
    And I think that what you've seen in the 4 years since 2014 is 
actually a strengthening and reinforcement of democratic institutions 
in Ukraine, of government control, of legitimate and organized armed 
forces that are responsive to command and control. So I would not 
overstate at all the importance of these groups. And to be clear, I'm 
not in any way apologizing for, or endorsing, or glossing over their 
extreme views. I'm just saying that they are extreme views and they 
don't really have much impact in Ukraine at all.
    As for legislation, we do regularly engage with the government of 
Ukraine about legislation that is both proposed by the government or 
under consideration by the Rada. Everything from urgent reforms, such 
as passage of legislation on an anticorruption court, or the passage of 
pension reform as we did previously, or in the future perhaps land 
reform, but also on some of these symbolic and historical issues. Our 
advice is that Ukraine needs to be respectful of democratic 
institutions, of democratic processes. It needs to be inclusive of 
people in this society. And it needs to be forward-looking about 
creating opportunity. And you can't control what goes on in the 
political debate of a democratic country. But what you can do is weigh 
in on some of the principles that we think are important.
    Mr. Tiersky. Great. Right next to you. Thank you.
    Questioner. Thank you, Ambassador Volker. Cory Welt from the 
Congressional Research Service. It's nice to see you.
    Amb. Volker. Nice to see you.
    Questioner. I have two questions for you, if I may. One, I was 
wondering if you could speak a bit to the thinking behind creating your 
position in the first place. As you know, the Obama Administration did 
not have a position like the one that you serve in. So I was wondering, 
what was the logic of having a greater U.S. role in the Ukraine 
negotiations process?
    And my second question concerns the Russian withdrawal from--I 
forget the name of it--but the mechanism in which they were allowed to 
have a monitoring role as well within Ukraine, and if their withdrawal 
raised any particular concerns, and what have been the ramifications.
    Amb. Volker. Yes. Great questions. So during the Obama 
Administration, the U.S. got engaged in these kinds of discussions with 
the French and Germans, and then directly with the Russians, and it was 
still at that time Vladislav Surkov, in the form of Assistant Secretary 
of State Toria Nuland. She met with Surkov a few times. She kept up the 
dialog with France and Germany. It became an important part of what she 
did as assistant secretary. When the new administration took over, 
there was a gap in filling that position. Wess Mitchell is now 
assistant secretary for Europe and Eurasian affairs. But there had been 
a gap. And for about the first 6 months of the administration, you had 
France, Germany, Ukraine, and Russia all saying to then-Secretary of 
State Tillerson, we want to continue the U.S. engagement here. We want 
to see the U.S. play a role.
    And in the absence of having a person in the assistant secretary 
slot or someone else who they could throw at this, Secretary Tillerson 
asked me if I'd be willing to take it on in a special representative 
capacity. I said I would be happy to do that. So that's how this was 
launched. And it is fortuitous that I've known Wess Mitchell for many, 
many years and we get along very well. We were just talking about these 
issues together yesterday. We have a very good relationship and 
continue to work together on this. But I think it was necessary at the 
time as a gap filler. And we'll have to judge going forward how long we 
think this particular arrangement is the right way as a matter of 
policy to address this issue, as opposed to other ways.
    As far as the Russian participation in cease-fire facilitation, 
this was a body called the Joint Centre for Control and Coordination, 
or J-triple-C, as people say. And it was an informal body. Never had 
any formal mandate. And it had Russian military officers present to 
liaise with Ukrainian military officers so that when there were cease-
fire violations or when there were attacks on the SMM, or road blocks, 
or lack of freedom of movement for the SMM, it could be reported to 
that entity. And then the Russians and the Ukrainians would all get the 
information, they would go away, and they'd be able to communicate down 
to the lower ranks and command to try to get the issue resolved.
    So even though Russia denied that it had forces present in 
Ukrainian territory, or that it had command and control of these 
forces, the reality is that when you're faced with live fire on the 
ground and monitors being held at gunpoint, you want to have someone 
who can actually talk to and command the forces there to say: Lay off.
    So Russia was for a while playing that role effectively. It then 
decided to pull out its forces from the JCCC--its generals from the 
JCCC. And that has basically removed what had been a very useful 
channel for resolving tactical-level problems. The Russians decided to 
push the Ukrainians and push the SMM to try to get them to negotiate 
directly with the forces organized under the so-called Luhansk People's 
Republic and Donetsk People's Republic. And that was an effort to try 
to prop up the legitimacy of those entities and, again, retreat behind 
a denial of any Russian direct involvement.
    That has led to a--I would say a greater frequency of disruption of 
the SMM's activities and, occasionally, some dangerous events that have 
taken place, that have had to be resolved without the kind of 
facilitation that could have otherwise happened.
    Mr. Tiersky. Thanks. I see another couple of hands in the audience.
    Amb. Volker. Two more.
    Mr. Tiersky. Let's do a couple more. And then, Ambassador, before I 
let you leave, I've got two final framing questions of my own. I'd like 
to take these last two from the audience together, and then I'll have a 
couple more questions of my own before we close the briefing.
    Questioner. Hello. Cathy Cosman, formerly Helsinki Commission, 
formerly U.S. Commission on International Religious Freedom.
    My questions both have to do with Crimea. In March of this year, 
the U.N. Security Council passed a condemnation of the Russian 
annexation of Crimea. Has that had any effect, other than declaratory? 
I think one can guess the answer.
    But the other has to do with the status of Crimean Tatars. The 
Crimean Tatars were the first large peaceful, organized human rights 
movement in the Soviet Union. As you know, they're primarily Muslim, 
and the contrast between Ukrainian laws on religion and Russian laws on 
religion have redounded very much to the negative impact on the Crimean 
Tatars. I'm just wondering whether, especially in this administration, 
it might be useful to call attention to that fact, that the Muslim 
Crimean Tatars are having such a difficult if not tragic time, given 
also their history of--[off mic].
    Mr. Tiersky. So for the purposes of our online viewers, the 
question was about, could this administration engage more forcefully in 
defense of the Muslim Crimean Tatar community, if I could summarize it 
that way. If the final question--if you could just speak up, please.
    Questioner. Viola Gienger, freelance writer and editor.
    And I wanted to ask about the role of civil society, Ambassador. 
What have you seen as the most influential role civil society has 
played, either in the occupied areas or in--either in Crimea or Donbas, 
or the rest of Ukraine, in terms of putting pressure on the relevant 
figures involved to try to resolve this issue and to try to move 
forward? Because it seems like we never hear much about the rest of 
society being involved in trying to help resolve this and put pressure 
on.
    Mr. Tiersky. Thank you. Again, the question there is on the role of 
civil society in driving this conflict toward a resolution.
    Amb. Volker. Right. So thank you. I'll try to address both quickly. 
The Crimean Tatar issue is a very important one to raise. The entire 
territory of Crimea now is occupied by Russia, claimed to be annexed. 
They've taken away fundamental political rights from the Crimean Tatars 
that they had exercised there previously. And many have stayed. Many 
have left to go to other parts of Ukraine. And there is an active civil 
society movement highlighting the plight of the Crimean Tatars. I met 
with the former speaker and deputy speaker of the Mejlis who had been 
imprisoned and then were released through Turkey and are now back in 
Ukraine.
    And I think that you are right that we should continue to highlight 
this. I am not sure that it is fair to say that legislation in Ukraine 
creates a worse environment for these people.
    Questioner. [Off mic.]
    Amb. Volker. Okay, good. Because my sense is that the Russian 
legislation is both harsher, but more importantly, Russian practices 
are much harsher. And Ukraine is actually creating a space for these 
people in their community, even in the rest of Ukraine, as they are 
there as displaced persons. And it is important that we continue to 
highlight it.
    And that goes right into the second question, from Viola, which is 
most of the valuable and important reports that we have about human 
rights violations come from civil society groups in Crimea. They are 
telling us what's happening there and reporting it out into Ukraine and 
then from there more widely. So that is a critical function, is the 
human rights monitoring that is going on from civil society.
    We hear less from the occupied area of the Donbas. I think those 
people feel under greater physical pressure day to day, perhaps. And 
it's harder to cross and communicate. But that said, there are 
significant border crossings every day across the cease-fire line. And 
there are civil society monitoring groups that go on there.
    The other aspect of civil society is in Kyiv, in Ukraine itself--
the rest of Ukraine--where civil society groups are continuing to 
demand that there be a respect for and an adherence to the aspirations 
of the Maidan, which was meant to be the beginning of a fundamental 
change in the society, not just a change of leadership but a respect 
for democratic institutions, for human rights, for the rule of law, for 
fighting corruption, for creating a European vocation for Ukraine. And 
I think people feel disappointed that things have not progressed more 
than they have. And civil society groups in Ukraine continuously push 
those issues forward to the Rada and to the government. And I think 
that's an important role.
    Mr. Tiersky. Great. Ambassador Volker, I'd like to challenge you 
with a couple of final questions of my own. One really is fairly 
fundamental, again, coming back to your mandate and the future of 
discussions on this conflict. As you are probably more aware of than 
anyone else, the Minsk agreements themselves face some skepticism in 
some quarters, including here in Washington. We are all part of 
describing the absence of real alternatives to Minsk as a basis for 
resolving this conflict, but I would remiss in not raising this with 
you. I think your mandate has to do with fulfilling the objectives of 
the Minsk agreements. Are there alternatives to the agreements 
themselves in your view? What do you say to those who would suggest 
some skepticism toward the agreements, given the lack of 
implementation?
    Amb. Volker. Right. Everything that needs to happen to restore the 
territory to Ukraine's sovereign control, to restore Ukraine's 
territorial integrity, and to restore rights for the citizenship--
peace, security, stability, protection of the people--all of those 
things are in the Minsk agreements. So the issue is not that they are 
lacking something. The issue is that there's been no implementation of 
them. They have flaws in the way they were structured and how they were 
pursued. But nonetheless, that's what's on the table. And Ukraine and 
Russia have committed to it.
    So I think that the most productive way forward is to actually get 
them implemented, even though there are flaws, rather than to try to 
cook up something else. That would just create some new open-ended 
negotiating process, where we already have something that has all the 
ingredients in it. So I understand the skepticism. There's been no 
movement on implementation of any seriousness for 4 years. But since we 
already have a deal, let's see if we can get it done. And that's the 
reason that we proposed a peacekeeping force as an option, because that 
would create the security in the area that would allow for the 
implementation to actually go forward.
    Mr. Tiersky. Great. Let me ask then and close the briefing with a 
hopeful question. Assuming all goes for the best and we find a 
political will in Moscow to actually begin to implement their 
commitments and the process flows in the way that we've been discussing 
with the peacekeeping mission, et cetera, and at some future date the 
conflict is resolved, is the administration already thinking about what 
role the United States should take in post-conflict reconstruction and 
stabilization, and how the international community should address this? 
What should Congress expect in terms of an ask, potentially, in that 
area?
    Amb. Volker. Yes. I don't have an answer for that one in terms of 
any specifics what we would be asking for. Let me outline the 
framework, though. You have a conflict area that has had a lot of 
damaging impact--economically, humanitarian, environmental, security 
rehabilitation, demining--all kinds of things that you can imagine 
would need to be done. You have a Ukrainian Government with some 
significant capacity. This is not a basket case of a country. It is a 
country that has some capacity. Nonetheless, it is likely to need some 
assistance. You have some Ukrainian business leaders who have a vested 
interest in fixing some of this. You have the European Union, which has 
funds available for this, a number of European countries that would 
like to be involved in supporting a rehabilitation of a conflict area 
across those many areas.
    I think the United States would certainly be looked to as a 
contributor as well. It would certainly be in our interest to see that 
these things move with some pace in order to see a genuine restoration 
of the territory, a rehabilitation of people's lives, and getting back 
onto normality. And the hope that that would create a prosperous and 
successful democratic Ukraine, that itself would be a contributor to 
economic development and to positive security and political environment 
in Europe going forward.
    Mr. Tiersky. Well, Ambassador Volker, you've been substantive, 
compelling, and eloquent. I'd like to thank you for being here and 
thank you in particular for your energy and creativity in this cause, 
and in taking up this mission. We wish you all the best and success in 
this role. And we hope for the best with you.
    Thank you, again, for appearing with us. And with that, I would 
like to close this briefing. Thanks for attending.
    Amb. Volker. Thank you for hosting me. Thank you. [Applause.]
    [Whereupon, at 3:13 p.m., the briefing ended.]
 


                            [all]


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.
         
                                   *  *  *

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                    *  *  *

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                    *  *  *

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.



                          Please subscribe today.





</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
